   June 9, 2005




Defense Infrastructure
Industrial Joint Cross-Service Group
Data Integrity and Internal Control
Processes for Base Realignment and
Closure 2005
(D-2005-082)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DoD OIG               Department of Defense Office of Inspector General
FRC                   Fleet Readiness Center
FTP                   File Transfer Protocol
ICP                   Internal Control Plan
IEC                   Infrastructure Executive Council
ISG                   Infrastructure Steering Group
JCSG                  Joint Cross-Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
SOP                   Standard Operating Procedures
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                         ARI-INGTON, VIRGINIA 22202-4704



                                                                               June 9,2005
MEMORANDUM FOR PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE
               FOR ACQUISITION, TECHNOLOGY AND LOGISTICS
SUBJECT: Report on Industrial Joint Cross-Service Group Data Integrity and Internal
         Control Processes for Base Realignment and Closure 2005 (Report
         NO. D-2005-082)

      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required. The complete text of the comments is in the Management Comments section of
the report.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Robert F. Prinzbach I1 at (703) 604-8907 (DSN 664-8907) or Mr. Douglas P. Ickes
at (703) 604-8763 (DSN 664-8763). The team members are listed inside the back cover.
See Appendix D for the report distribution.
                               By direction of the Deputy Inspector General for Auditing:
                                            A




                                         Donald A. ~loo(ner
                                          Program Director
                              Readiness and Logistics Support Directorate
                Department of Defense Office of Inspector General
Report No. D-2005-082                                                        June 9, 2005
   (Project No. D2003LH-0131.000)

             Industrial Joint Cross-Service Group Data Integrity
                   and Internal Control Processes for Base
                        Realignment and Closure 2005

                                    Executive Summary

Who Should Read This Report and Why? Members of the Industrial Joint Cross-
Service Group (JCSG), Office of the Secretary of Defense personnel, and anyone
interested in the Base Realignment and Closure (BRAC) process should read this report.
The report discusses the validity, integrity, and documentation of data used by the
Industrial JCSG for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, to request that the Department of
Defense Office of Inspector General review the accuracy of BRAC data and the
certification process. In addition, the Department of Defense Office of Inspector General
was responsible for validating that the BRAC data used by the JCSGs for developing
recommendations was certified by the appropriate authority.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls–capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of Base
Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls were
collectively known as the second data call. This report is one of seven that discusses the
JCSG involvement in the BRAC process.

Industrial Joint Cross-Service Group. The Industrial JCSG is one of six JCSGs
established by the Under Secretary of Defense for Acquisition, Technology, and
Logistics as the Chairman of the ISG on March 15, 2003, a seventh JCSG was later
added. Each JCSG is responsible for overseeing the joint cross-service analysis of
functions within their area. The Principal Deputy Under Secretary of Defense for
Acquisition, Technology and Logistics was appointed the chair for the Industrial JCSG.
The scope of the Industrial JCSG is composed of three functional areas: Maintenance;
Munitions and Armaments, formerly named Ammunitions and Armaments; and Ship
Overhaul and Repair, formerly named Shipyards Overhaul and Repair.

Results. We evaluated the Industrial JCSG use of certified data and evaluated whether
the Industrial JCSG had an adequate audit trail for capacity analysis and military value


                                             i
analysis. We also evaluated the adequacy of the Industrial JCSG audit trail for the Cost
of Base Realignment Actions model inputs for 25 potential candidate recommendations.
The sampling results indicate that the Industrial JCSG used certified data and had an
adequate audit trail for capacity analysis and military value analysis. The Industrial
JCSG had an adequate audit trail for the input into the Cost of Base Realignment Actions
model. In addition, the Industrial JCSG complied with established internal controls from
the Office of the Secretary of Defense Internal Control Plan and the Industrial JCSG
standard operating procedures. However, minor discrepancies were discovered in the
capacity and military value production databases, which the Industrial JCSG took
immediate action to resolve. As a result, no material discrepancies or noncompliance
areas remain that affect the reliability and integrity of the Industrial JCSG process.

Management Comments. Although no comments were required, the Chairman,
Industrial JCSG stated he had no comments or suggested changes. See the finding
section of the report for a discussion of the management comments and the Management
Comments section for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       5

Finding
     Industrial Joint Cross-Service Group Data Integrity and Internal Control
        Processes for BRAC 2005                                                  7

Appendixes
     A. Scope and Methodology                                                   12
         Management Control Program Review                                      15
     B. Prior Coverage                                                          16
     C. Review of Potential Candidate Recommendations                           17
     D. Report Distribution                                                     20



Management Comments
     Industrial Joint Cross-Service Group                                       21
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, established the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. Congress authorized a Base
    Realignment and Closure (BRAC) 2005. The law authorized the establishment of
    an independent Commission to review the Secretary of Defense recommendations
    for realigning and closing military installations. The deadline for the Secretary of
    Defense to submit recommendations to the independent Commission was May 16,
    2005.

    In the Secretary of Defense “Transformation Through Base Realignment and
    Closure (BRAC 2005) Memorandum,” November 15, 2002, the Secretary
    established two senior groups to oversee and operate the BRAC 2005 process.
    The two senior groups were the Infrastructure Executive Council (IEC) and the
    Infrastructure Steering Group (ISG). Distinct functional boundaries and levels of
    authority separate those two groups. The Secretary of Defense established and
    chartered the IEC and the ISG as the BRAC 2005 deliberative bodies responsible
    for leadership, direction, and guidance.
    Infrastructure Executive Council. The IEC, chaired by the Deputy Secretary of
    Defense and composed of the Secretaries of the Military Departments and their
    Chiefs of Services, the Chairman of the Joint Chiefs of Staff, and the Under
    Secretary of Defense for Acquisition, Technology, and Logistics, was the
    policymaking and oversight body for the entire BRAC 2005 process. The IEC
    was the approval authority for all BRAC recommendations to the Secretary of
    Defense.

    Infrastructure Steering Group. The ISG was chaired by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics and composed of the Vice
    Chairman of the Joint Chiefs of Staff, the Military Department Assistant
    Secretaries for Installations and Environment, the Service Vice Chiefs, and the
    Deputy Under Secretary of Defense Installations and Environment. The ISG
    oversaw the joint cross-service analyses of common business-oriented functions
    and ensured the process was integrated with the Military Department and Defense
    agency specific analyses of all other functions. The ISG provided progress
    reports to the IEC. The Under Secretary of Defense for Acquisition, Technology,
    and Logistics had the authority and responsibility for issuing the operating
    policies and detailed direction necessary to conduct the BRAC 2005 analyses.

           •   “Transformation Through Base Realignment and Closure
               (BRAC 2005) Policy Memorandum One—Policy, Responsibilities,
               and Procedures,” April 16, 2003. Policy Memorandum One applies
               to the Military Departments, Defense agencies (DoD Components),
               and Joint Cross-Service Groups (JCSGs) in developing the Secretary
               of Defense BRAC recommendations for submission to the 2005
               BRAC Commission for their review. Policy Memorandum One
               describes policy, responsibilities, and procedures to be followed by
               participants in the BRAC process. Additionally, Appendix B of Policy
               Memorandum One is the Office of the Secretary of Defense (OSD)


                                         1
    internal control plan (ICP) for the BRAC 2005 process, which the
    JCSGs must use in order to ensure the accuracy of data collection and
    analysis.

•   “Policy Memorandum Two—BRAC 2005 Military Value
    Principles,” October 14, 2004. Policy Memorandum Two states that
    all recommendations made by the JCSGs and Military Departments
    will use military value as the determining factor. When making
    realignment or closure recommendations, JCSGs and Military
    Departments apply appropriate use of military judgment in order to
    meet all requirements by the Department. Military judgment is
    applied through the following principles: Recruit and Train, Quality of
    Life; Organize; Equip; Supply, Service, and Maintain; Deploy and
    Employ (operational); and Intelligence.
•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Three—Selection Criterion 5,”
    December 7, 2004. Policy Memorandum Three describes how BRAC
    selection criterion 5 will be implemented during the BRAC process.
    JCSGs and Military Departments will apply selection criterion 5 to
    their scenarios to estimate the projected costs and savings.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Four—Selection Criteria 7 and 8,”
    December 7, 2004. Policy Memorandum Four provides guidance and
    clarification on the assessment of communities’ infrastructure and
    consideration of the environmental impacts of realignment and closure
    scenarios.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Five—Homeland Defense,”
    December 10, 2004. Policy Memorandum Five gives guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs, to ensure that the Department retains the necessary
    capabilities to support the homeland defense mission.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Six—Selection Criterion 6,”
    December 20, 2004. Policy Memorandum Six provides guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs on how to use the Economic Impact Tool when applying
    BRAC selection criterion 6 to realignment and closure scenarios.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Seven—Surge,”
    January 4, 2005. Policy Memorandum Seven provides guidance for
    the Military Departments and JCSGs to meet the DoD statutory
    requirement to consider surge in realignment and closure scenarios.




                             2
       •   “Transformation Through Base Realignment and Closure
           (BRAC 2005) Policy Memorandum Eight—Selection Criterion 8,”
           January 4, 2005. Policy Memorandum Eight provides guidance on
           how to identify the environmental impacts of a particular scenario in
           order to provide decision makers with the information they need to
           fully consider the impacts.

Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
realigning base structure, was to examine and implement opportunities for greater
joint activity. Prior BRAC analyses considered all functions on a Service-by-
Service basis and, therefore, did not result in the joint examination of functions
that cross Services. The JCSGs addressed issues that affect common business-
oriented support functions, examined functions in the context of facilities, and
developed realignment and closure recommendations based on force structure
plans of the Armed Forces and on selection criteria. The JCSGs reported their
results through the ISG to the IEC. OSD established seven JCSGs—Education
and Training, Headquarters and Support Activities, Industrial, Intelligence,
Medical, Supply and Storage, and Technical.
Industrial Joint Cross-Service Group. The Industrial JCSG was one of six
JCSGs established on March 15, 2003, by the Under Secretary of Defense for
Acquisition, Technology, and Logistics. Later, a seventh JCSG was added. Each
JCSG was responsible for overseeing the joint cross-service analysis of functions
within their area. The Principal Deputy Under Secretary of Defense for
Acquisition, Technology, and Logistics was appointed the chair for the Industrial
JCSG. The purpose of the Industrial JCSG was to identify opportunities for
consolidation, closure, or downsizing of the DoD Industrial Base. The scope of
the Industrial JCSG is composed of three functional areas: Maintenance;
Munitions and Armaments, formerly named Ammunitions and Armaments; and
Ship Overhaul and Repair, formerly named Shipyards Overhaul and Repair.

        Maintenance (Depot and Intermediate). The Maintenance Subgroup
was initially chaired by the Principal Deputy Assistant Secretary of the Air Force,
Installations, Environment, and Logistics. Analysis was conducted for both the
Depot and Intermediate Maintenance functional levels. Each function was
assessed at the Commodity group level.

       Munitions and Armaments. The Munitions and Armaments Subgroup,
formerly named Ammunitions and Armaments, was initially chaired by the
Commander, Operations Support Command, Rock Island, Illinois. The subgroup
addressed the entire life cycle of munitions (except Research, Development, Test
and Evaluation (RDT&E)) and armaments. The Munitions and Armaments
Subgroup evaluated the military value of installations based on five key functions.
Of those functions, four related to the Munitions: production, maintenance,
storage/distribution, and demilitarization; one function related to Armaments:
manufacturing/production within the government-owned Industrial base.

       Ship Overhaul and Repair. The Ship Overhaul and Repair Subgroup,
formerly named Shipyards Overhaul and Repair, was initially chaired by the
Deputy Commander, Maintenance and Intermediate and Depot Operations, Naval
Sea Systems Command. Analysis was conducted for both the Depot and
Intermediate Maintenance functional levels.


                                     3
           BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
           United States and its territories, was divided into the following data calls—
           capacity analysis, supplemental capacity, military value, Cost of Base
           Realignment Actions (COBRA), and Joint Process Action Team Criterion
           Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
           value, COBRA, and JPAT 7 data calls were collectively known as the second data
           call. Each JCSG developed data call questions related to capacity analysis and
           military value to obtain information about the functions that they reviewed. Each
           JCSG was required to issue a capacity analysis and military value analysis report.
           Each data call had a specific purpose as follows.

                    •    The capacity analysis data call gathered data on infrastructure, current
                         workload, surge requirements, and maximum capacity.

                    •    The supplemental capacity data call clarified inconsistent data
                         gathered with the initial capacity analysis data call.
                    •    The military value data call gathered data on mission requirements,
                         land and facilities, mobilization and contingency, and cost and
                         manpower.

                    •    The COBRA data call gathered data to develop costs, savings, and
                         payback (formerly known as return on investments) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           OSD Master Database. The DoD collected certified data for BRAC 2005 using
           a mix of automated and manual processes. The Services and six Defense
           agencies used automated tools to collect the data while the other Defense agencies
           and organizations collected data manually in an electronic format for the data
           calls. Portions of that automated data were then transferred to OSD and compiled
           into Microsoft Access 2003 databases called Capacity Analysis Database and
           Military Value Analysis Database. We refer to the Capacity Analysis Database
           and the Military Value Analysis Database together as the OSD Master Database,
           which OSD used as the centralized point of data distribution to the JCSGs.

           COBRA Model. COBRA was a model used that provided a uniform
           methodology for estimating and itemizing projected costs and savings associated
           with realignment and closure scenarios. The COBRA model calculated the costs,
           savings, and payback of proposed realignment and closure actions, using data that
           were readily available without extensive field studies. The COBRA model can
           also be used to compare the relative cost differences between various stationing

1
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.

                                                        4
    alternatives. The model is not designed to produce budget estimates, but to
    provide a consistent method of evaluating these actions. COBRA calculated the
    costs and savings of base stationing scenarios over a period of 20 years. In
    addition, COBRA modeled all activities (moves, construction, procurements,
    sales, closures) as taking place during the first 6 years, and thereafter, all costs
    and savings are treated as steady-state. The key output value produced is the
    Return on Investment Year, which is the point in time when the realignment or
    closure has paid for itself and net savings start to accrue (payback period).
    COBRA allowed realignment or closure scenarios to be compared in terms of
    when payback was achieved.

    To perform a COBRA assessment, Industrial JCSG loaded scenario-specific data
    into the COBRA model. Those data, used in combination with model algorithms
    and standard cost factors already developed and pre-loaded into the model,
    resulted in an estimate of cost, savings, and payback for the proposed realignment
    or closure scenario. To obtain the needed COBRA data inputs, Industrial JCSG
    developed COBRA-related questions that were issued as scenario data calls.
    Those COBRA-related questions focused on data not previously gathered
    concerning specific losing and receiving installations.
    Internal Control Plans. The OSD ICP was distributed as part of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics’ memorandum,
    “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
    Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003.
    Appendix B of Policy Memorandum One is the ICP for all JCSGs. In addition,
    each JCSG prepared Standard Operating Procedures (SOPs) that further
    delineated controls related to the specific JCSG.

    The Industrial JCSG prepared, “Office Procedures for the Industrial Joint Cross-
    Service Group Base Realignment and Closure 2005,” (also known as SOPs) on
    April 20, 2004. The office procedures addressed Industrial JCSG specific storage
    requirements, document control, use of communication devices, public affairs
    guidance, and office security.

    Department of Defense Office of Inspector General Responsibility. The
    “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
    Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003,
    required the Department of Defense Office of Inspector General (DoD OIG) to
    provide ICP development and implementation advice and review the accuracy of
    BRAC data and the certification process. In addition, the memorandum required
    DoD OIG personnel to assist the JCSGs and DoD Components as needed. The
    resulting report summarizes issues related to the Industrial Joint Cross-Service
    Group BRAC 2005 process.



Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    documentation of data used by the Industrial JCSG. Specifically, we determined
    whether the Industrial JCSG used certified data and created an adequate audit trail


                                          5
for capacity analysis and military value analysis. In addition, we determined
whether the Industrial JCSG created an adequate audit trail for their potential
candidate recommendations.

Also, we evaluated whether Industrial JCSG complied with the OSD ICP and the
specific Industrial JCSG SOP. This report is one in a series on JCSG data
integrity and internal control processes for BRAC 2005. See Appendix A for a
discussion of the audit scope and methodology and our review of the management
control programs related to the objectives. See Appendix B for prior coverage.
See Appendix C for a discussion of the review of COBRA input for potential
candidate recommendations.




                                     6
           Industrial Joint Cross-Service Group
           Data Integrity and Internal Control
           Processes for BRAC 2005
           The sampling results indicated that the Industrial JCSG used certified data
           and created an adequate audit trail for capacity analysis and military value
           analysis. The Industrial JCSG created an adequate audit trail for the
           COBRA model input for 25 potential candidate recommendations. In
           addition, the Industrial JCSG complied with established internal controls
           from the OSD ICP and Industrial JCSG SOP. However, minor
           discrepancies were discovered in the capacity analysis and military value
           production databases, which the Industrial JCSG took immediate action to
           resolve. As a result, no material discrepancies or noncompliance areas
           remain that affect the reliability and integrity of the Industrial JCSG
           process on data.


Industrial JCSG Data Integrity and Documentation for
  BRAC 2005
    The sampling results indicated that the Industrial JCSG used certified data and
    created an adequate audit trail for the capacity analysis and military value
    analysis. In addition, the Industrial JCSG created an adequate audit trail for the
    inputs into the COBRA model. The certified data responses were collected from
    the installations as a result of formal data calls generated by OSD using the
    Industrial JCSG questions. The responses were received through formal data
    transfers from the OSD BRAC office to the Industrial JCSG which maintained the
    data within six production databases. As a result of diligence in maintaining data
    integrity, the Industrial JCSG had no material discrepancies that affect the
    reliability and integrity of their data process.

    Production Database. The Industrial JCSG had an adequate electronic audit trail
    that was transparent to the audit team. In addition, the Industrial JCSG prepared a
    written data management plan for the production database. The Industrial JCSG
    maintained all the BRAC 2005 capacity and military value data responses
    electronically in a total of six production databases that were partitioned along
    three functional subgroups (Maintenance, Ship Overhaul and Repair, and
    Munitions and Armaments) for capacity analysis and military value data. The
    databases were managed on a centralized server in the form of Microsoft Access
    2003 Databases. The database manager prepared the “Industrial Joint Cross-
    Service Group BRAC Database Management Plan, May 10, 2004,” document
    #IND-JCSG-D-04-003, outlining how data for the Industrial JCSG were
    processed, updated, and controlled. The plan listed only four named users with
    direct access to the data. The Industrial JCSG provided extensive documentation
    to support the electronic processing of data. However, we did identify areas in
    their data management plan that needed additional documentation. As a result of
    the potential weakness brought to the attention of the Industrial JCSG, the plan
    was revised.


                                         7
Capacity Analysis Data. The sampling results indicated that the Industrial JCSG
used certified data for capacity analysis. The Industrial JCSG subgroups
identified capacity measurements related to their respective assigned functions.
The measurements were used to develop questions that were designed to gain
certified responses from installations that would be used for analysis. The
Industrial JCSG asked both initial and supplemental capacity analysis questions to
obtain the required information for use in the BRAC 2005 analysis of the
Industrial Base. An initial validation was conducted early in the process to
determine whether the data elements within the Industrial JCSG Production
Databases were certified responses obtained from the OSD File Transfer Protocol
(FTP) Site. A second validation of the capacity analysis data was conducted in
March 2005, using a statistical sampling plan (see Appendix A for details).
Based on the results of our audit sampling, the estimated percentage of errors in
the capacity analysis databases was below the acceptable percentage criteria.
The Industrial JCSG created an adequate electronic audit trail for capacity
analysis. The capacity analysis data contained in the production databases were
used to populate the Industrial JCSG Capacity Report. The audit trail was
transparent in that the data manager developed reports within the production
databases that contained data queried directly from the tables populated from the
files received from OSD-certified sources. The queries applied equations that
produced results that were used by the subgroups in their analysis. During a
review of results contained in the Industrial JCSG Capacity Report, an incorrect
equation was discovered in the row entitled “Percentage of Capacity not
Utilized.” The results of the validation were discussed with the Industrial JCSG
on November 9, 2004. As a result, the Industrial JCSG took immediate corrective
action and resolved the error.

Military Value Data. The sampling results indicated that the Industrial JCSG
used certified data for military value analysis. The Industrial JCSG subgroups
developed military value attributes, metrics and questions for each of the four
military value criteria, defined in the Policy Memorandum “2005 Base Closure
and Realignment Selection Criteria, January 4, 2005.” The questions were
designed to obtain certified responses from installations that would be used for
analysis. The initial validation of the military value data found that the Industrial
JCSG used certified data. A second validation of the military value data was
conducted in March 2005, using a statistical sampling plan (see Appendix A for
details). We determined that although some of the files had been reformatted, the
estimated percentage of errors in the sample results for military value databases
was below the acceptable percentage criteria.

The Industrial JCSG created an adequate electronic audit trail for military value
analysis. The audit trail was transparent in that the data manager developed
military value reports from the production databases that contained data queried
directly from the tables populated from the files received from OSD certified
sources. The queries applied algorithms that produced results that were used by
the subgroups in their analysis. The “Industrial Joint Cross-Service Group
Military Value Analysis Report, June 28, 2004” listed the attributes, metrics, a
quantitative scoring plan, and data call questions to assess the military value of
DoD Industrial facilities. That report provided the framework for the Industrial
JCSG military value model for calculating scores. During a review of the results
contained in the military value scoring plan for the Munitions and Armaments

                                      8
     subgroup, one database query error was discovered. We discussed the results of
     the validation with the Industrial JCSG on December 15, 2004. As a result,
     immediate corrective action was taken and the error was resolved.

     COBRA Input. The Industrial JCSG created an adequate audit trail for the
     COBRA model input for 25 potential candidate recommendations. The Industrial
     JCSG used the certified responses from the scenario data calls to populate the
     COBRA model. In addition, in some instances, the Industrial JCSG subgroups
     used data derived from the certified responses to conduct their analysis. The
     derived data was documented throughout the process. We reviewed 25 out of
     31 scenario packages that the Industrial JCSG proposed as candidate
     recommendations (see Appendix C). At the time of our review, all scenarios had
     been processed using COBRA version 6.08. The main issues identified were the
     need for additional supporting documentation and additional footnotes in the
     COBRA model to further explain results. The Industrial JCSG took the
     appropriate steps to address the footnoting and documentation. The Industrial
     JCSG maintained a sufficient audit trail supporting their recommendations.
     Therefore, no material issues remain outstanding.
     Risk Mitigation. The Industrial JCSG planned and executed risk mitigation
     actions that preserved data reliability throughout their entire BRAC process.
     Some of the actions that were undertaken by the Industrial JCSG subgroups
     included: BETA testing, data standardization, and data clarifications from Service
     representatives. Risk mitigation was the effort that the various BRAC Joint
     Cross-Service Groups went through to improve the quality and accuracy of data
     that were collected from all military service installations within DoD. The data
     collected by the Industrial JCSG under the BRAC process were the building
     blocks that would be used to render future realignment and closure actions within
     the DoD. The DoD OIG performed a limited review of the data that the Industrial
     JCSG subgroups collected and processed during the two BRAC data calls to
     access the subgroup’s success at resolving data errors in the capacity analysis and
     military value databases. The review concluded that the subgroups of the
     Industrial JCSG successfully reduced the number of data errors in the capacity
     analysis and military value databases that significantly improved the reliability of
     the data that was used to decide BRAC actions.


Industrial Joint Cross-Service Group Internal Control
  Processes for BRAC 2005
     The Industrial JCSG complied with the OSD ICP. The OSD ICP formed the
     foundation for the Industrial JCSG SOP. To evaluate compliance of the Industrial
     JCSG, each area of the Industrial JCSG SOP was compared to the respective area
     in the OSD ICP to ensure that the Industrial JCSG adequately addressed all areas
     of concern. Additionally, the Industrial JCSG was observed as they employed the
     policies and procedures in performance of their daily activities. Also, an
     extensive comparison of the Industrial JCSG nondisclosure agreements to the
     various meeting attendees list was conducted. As a result of the Industrial JCSG
     compliant actions, their data integrity was maintained.



                                          9
    Compliance with OSD ICP. The Industrial JCSG complied with the OSD ICP
    procedures. The ICP procedures required that:

       •   the BRAC 2005 process be clearly recorded;

       •   information used in the analysis be certified by the appropriate authority
           for accuracy and completeness, and that the information be used
           consistently;

       •   data collected and used for analyses and/or decision making be obtained
           from appropriate sources;

       •   minutes be recorded for all deliberative meetings;

       •   oral briefings be captured in minutes;
       •   outside studies be brought to the attention of any BRAC group;

       •   technical experts submit information or data in writing with the required
           certification if the JCSG considers the data relevant;

       •   nondisclosure agreements be maintained for all participants in the BRAC
           process; and

       •   BRAC 2005 documents be marked as draft deliberative and/or sensitive.

    Compliance with Standard Operating Procedures. The Industrial JCSG
    complied with their SOPs. The foundation of the SOPs was the OSD ICP. The
    Industrial JCSG was located in leased office space; internal controls to ensure
    data management and security were an utmost priority. DoD OIG auditors
    continuously reviewed the Industrial JCSG implementation of the procedures,
    attended meetings on a regular basis, and validated the data maintained in the
    production databases. As a result of the Industrial JCSG compliance with the
    standards, data integrity and security were maintained.


Conclusion
    The sampling results indicate that the Industrial JCSG used certified data and
    created an adequate audit trail for capacity analysis and military value analysis.
    After our review, we determined the Industrial JCSG created an adequate audit
    trail for the input into the COBRA model for 31 potential candidate
    recommendations. In addition, the Industrial JCSG complied with established
    internal controls from the OSD ICP and the Industrial JCSG SOPs. The Industrial
    JCSG took steps to resolve the discrepancies noted. No material discrepancies
    remain unresolved that would affect the reliability and integrity of the Industrial
    JCSG process.




                                        10
Management Comments of the Finding
    Industrial Joint Cross-Service Group. Although no comments were required,
    the Chairman, Industrial JCSG stated he had no comments or suggested changes.
    See the Finding section of the report for a discussion of the management
    comments and the Management Comments section for the complete text of the
    comments.




                                      11
Appendix A. Scope and Methodology
We evaluated the validity, integrity, and documentation of data used by the
Industrial JCSG. Specifically, we determined whether the Industrial JCSG had
used certified data and had created an adequate audit trail for capacity analysis
and military value analysis. In addition, we determined whether the Industrial
JCSG had created an adequate audit trail for their potential candidate
recommendations. We also evaluated whether the Industrial JCSG complied with
the OSD ICP and the specific Industrial JCSG SOP.

Over the 2-year period beginning in May 2003, we attended meetings of the
Industrial JCSG. We reviewed the formal minutes and briefing charts of the
meetings to verify that decisions made by the Industrial JCSG were adequately
documented. In addition, we reviewed the Industrial JCSG SOP for compliance.
We also conducted reviews of the nondisclosure agreements maintained by the
Industrial JCSG to the attendees list prepared at specific Industrial JCSG
meetings.

We performed validations to determine whether the Industrial JCSG used
certified data or approved authoritative sources for developing BRAC
recommendations. We evaluated the integrity of the Industrial JCSG BRAC 2005
process. Our evaluation included:

       •   reviewing the automated analysis models for accuracy;

       •   ensuring methodologies were sufficiently documented; and

       •   comparing data used to make deliberative decisions to certified or
           authoritative data.

Scope Limitations. Because of time constraints, the audit team was not able to
review the six Fleet Readiness Center (FRC) scenarios (IND-0103; IND-0104;
IND-0123; IND-0124; IND-0125; IND-0126) developed by the Maintenance
subgroup. At the time of our review, the Maintenance subgroup was still
awaiting data from the Navy in order to process these scenarios.
Capacity Analysis. For the initial capacity analysis data validation, we obtained
a copy of the Industrial JCSG production database as of November 1, 2004, and
compared the data with the OSD master database file downloaded by the
Industrial JCSG from the OSD FTP site, as of November 1, 2004. The Industrial
JCSG database manager downloaded the master database from an FTP site OSD
established to transfer certified data. We compared positive responders in the
Industrial JCSG production database to the data downloaded from the OSD FTP
site. Positive responders were activities that provided actual data as a response to
a question. “Not applicable” or a blank was not considered a positive response.
The Industrial JCSG asked a total of 175 capacity analysis questions. For the
initial capacity analysis validation, we reviewed a judgmental sample of
89 questions. The 89 questions contained 164,013 lines of data; 5,947 lines of
data were positive responders. Using a judgmental sample, we reviewed 948
lines of the positive responders for accuracy.

                                     12
The final validation of the capacity analysis data took place in March 2005.
Using a statistical sample plan, we compared data the OSD BRAC office
provided to production data collected from the Industrial JCSG. We reviewed a
total of
624 lines of data, with 208 in each of the three subgroups (see Table 1, Capacity
Analysis).

The Industrial JCSG provided a copy of the capacity report as of November 1,
2004, which was electronically generated from the Industrial JCSG production
database without manual entry. The report was organized into separate sections.
We also compared the data in the “Capacity by Site” section of the report to data
in the “Capacity by Commodity” section and verified the calculations within the
report.

Military Value Analysis. The Industrial JCSG asked a total of 350 military
value questions. For the initial military value data validation, we reviewed a
judgmental sample of 176 questions. The 176 questions contained 51,433 lines of
data. We obtained the Industrial JCSG production database for our validation
from the Industrial JCSG database manager on December 2, 2004. We then
compared the positive responders in the Industrial JCSG database to the data from
the OSD BRAC master database downloaded by the Industrial JCSG from the
OSD FTP site as of November 29, 2004. Of the 51,433 lines, 15,362 were
positive responders. Using a judgmental sample, we reviewed 1,859 of the
15,362 positive responders. Additionally, we used the Industrial JCSG approved
Military Value Analysis Report, June 28, 2004, to validate the formulas contained
in the military value scoring model for the related sites and questions.
The final validation of the military value data took place in March 2005. Using a
statistical sample plan, we compared data the OSD BRAC office provided to
production data collected from the Industrial JCSG. We reviewed a total of
624 lines of data, with 208 in each of the three subgroups (see Table 2, Military
Value Analysis).

COBRA Input. We reviewed COBRA data contained in 25 of the 31 potential
candidate recommendations (see Appendix C). We used COBRA model
version 6.08 as of March 28, 2005, for our review. Subsequent versions of
COBRA have been released; however, because of time constraints we did not
revalidate. We compared the data in the COBRA model to the master or control
data downloaded from the various Service and OSD portals. We reviewed static
data as well as inputs for screens five and six. As of the date of our review, the
six FRC recommendations (IND-0103; IND-0104; IND-0123; IND-0124; IND-
0125; IND-0126) of the Maintenance Subgroup were not ready for review.

Government Accountability Office High-Risk Areas. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Federal Real Property and the DoD Approach to
Business Transformation, DoD Support Infrastructure Management high-risk
areas.

Use of Computer-Processed Data. We relied on computer-processed data from
the Industrial JCSG Production Database, the OSD Master Database, and the
OSD FTP Site Master Data Files. Our review of the system controls over the


                                    13
Industrial JCSG Production Database provided reasonable assurance on the data’s
validity.

Sample Design. The Industrial JCSG capacity analysis and military value data
are maintained on production databases. The final validation of the Industrial
JCSG capacity analysis and military value data was conducted using a statistical
sample plan, and by selecting simple random samples of lines of data derived
from the six production databases, three each for capacity analysis and military
value, reported as of March 2, 2005, and listed below:



                         Table 1. Capacity Analysis

        No.                 Database            Population     Sample
         1       Maintenance                      171,540        208

         2       Ship Overhaul and Repair         36,366         208

         3       Munitions and Armaments          76,972         208

                 Total                                           624



                     Table 2. Military Value Analysis

        No.      Database                       Population     Sample

         1       Maintenance                      95,066         208

         2       Ship Overhaul and Repair          6,083         208

         3       Munitions and Armaments           5,353         208

                 Total                                           624



The sample size of 208 lines of data for each subgroup’s database was determined
by using a 95-percent confidence level with a maximum tolerance error rate of
3 percent with no more than 2 sample errors per database. We validated each
database by analyzing the respective sample results which showed that the
estimated proportion of errors in each database was below the percentage criteria.
However, reformatting discrepancies were noticed in certain line items that were
subsequently clarified and resolved.

Use of Technical Assistance. Statisticians from the Analysis, Planning, and
Technical Support Directorate, Quantitative Methods Division, Office of the
Deputy Inspector General for Auditing, provided assistance in designing a
random statistical sampling plan for performing the final validation.

                                       14
    Audit Type, Dates, Standards. We performed this audit from May 2003
    through May 2005 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    We evaluated the Industrial JCSG management controls for documenting and
    safeguarding information associated with the BRAC 2005 data calls, as directed
    by the OSD ICP. Specifically, we reviewed nondisclosure agreements,
    deliberative meeting minutes, proper markings and storage of BRAC data, and the
    supporting documentation for Industrial JCSG BRAC data. Management controls
    were adequate as they applied to the audit objectives (see finding for specific
    details). The JCSGs were established as part of the BRAC process and therefore
    would not have management control programs outside of the BRAC process.




                                      15
Appendix B. Prior Coverage
     During the last 5 years, the DoD OIG and the Army Audit Agency have issued
     five memorandums and audit reports discussing the Industrial JCSG BRAC 2005
     data validations and one report on the COBRA Model.

Department of Defense Inspector General
     DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
     Capacity Data Used by the Industrial Joint Cross-Service Group,” March 11,
     2005

     DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
     Military Value Data and Military Value Model Used by the Industrial Joint Cross-
     Service Group,” March 11, 2005


Army
     Army Audit Agency Report A-2005-0169-ALT, “Validation of Army Responses
     for Joint Cross-Service Group Questions,” April 22, 2005

     Army Audit Agency Report A-2005-0083-ALT, “Army Military Value Data The
     Army Basing Study 2005,” December 21, 2004

     Army Audit Agency Report A-2004-0544-IMT, “Cost of Base Realignment
     Action (COBRA) Model The Army Basing Study 2005,” September 30, 2004

     Army Audit Agency Report A-2004-0459-IMT, ”Validation of Army Installation
     Capacity Data for Base Realignment and Closure 2005 Industrial Joint Cross-
     Service Group,” August 24, 2004




                                        16
Appendix C. Review of Potential Candidate
            Recommendations
Tables C-1 through C-3 identify the 31 Potential Candidate Recommendations
prepared by the Industrial JCSG as of the IEC meeting May 4, 2005.
Of the 31 recommendations, 25 were included in our review. All of the issues
identified were called to the attention of the responsible Subgroup for action.
The Industrial JCSG Subgroups took immediate action to comply with the DoD
OIG issues.

                              Table C-1. Ship Overhaul and Repair
                    Industrial JCSG Potential Candidate Packet Review




                                                                               e
                                                                    tio didat




                                                                           sis
                                                                            8




                                                                         lan
                                                                        6.0




                                                                        aly

                                                                       ers
                                                            en Can




                                                                      sis
                                                                    eP
                                                                        n




                                                                    An
                                                                  ion




                                                                   ett
                                                                   y
                                                                tur
                                                                da




                                                                  l


                                                              nL
                                                       mm -




                                                              lue
                                                               na
                                                              ers
                                                             on
                                                   co art




                                                             uc
                                                          yA



                                                           tio
                                                           Va
                                                          n6

                                                          n7

                                                          n8
                                                         AV




                                                         Str
                                                         ati
                                               Re Ch




                                                       ica
                                                       cit
                                                      rio

                                                      rio

                                                      rio




                                                       ry
                                                      fic
                                                    BR




                                                   rce
                                                   ad




                                                   pa



                                                   rtif
                                                  lita
                                                  ite

                                                  ite

                                                  ite
                                                  sti
                                               CO
                                               Qu




                                               Ce
                                               Ca
                                               Fo
                                               Ju




                                               Cr
                                               Cr

                                               Cr




                                               Mi
Scenario No.   Scenario Short Title
                               Shipyards Overhaul and Repair
IND-0019       Sima Pascagoula, MS               Y      Y   Y    Y    Y   Y   Y   Y    P*   Y
IND-0024       Sima Norfolk, VA                  Y      Y Y* Y        Y   Y   Y   Y    P*   Y
IND-0030       Sima NRMF Ingleside, TX           Y      Y Y* Y        Y   Y   Y   Y    Y    Y
IND-0037       New London, CT                    Y      Y Y* Y        Y   Y   Y   Y    Y    Y
IND-0056       Portsmouth, NH                    Y      Y Y* Y        Y   Y   Y   Y    Y    Y
IND-0095       Puget Sound Det, MA               Y      Y Y* Y        Y   Y   Y   P*   Y    Y
IND-0096       NNSY Det NAVPESO, MD              Y      Y Y* Y        Y   Y   Y   Y    Y    Y
IND-0097       NNSY Det NAVSHIPSO, PA            Y      Y   Y    Y    Y   Y   Y   Y    Y    Y
                       Y - Included / P - Partial / * - Exception Noted


Ship Overhaul and Repair. We reviewed eight potential candidate
recommendations for the Ship Overhaul and Repair Subgroup. Subsequent to
issuance of the Draft Report, candidate recommendations IND-0019,
IND-0030, IND-0037, and IND-0056 were absorbed into larger Navy candidate
recommendations. Additionally, the subgroup took corrective action and
resolved the following exceptions:

   •    IND-0024 Insert military value analysis data.

   •    IND-0095 Insert capacity analysis sheet.

   •    Additional footnotes for clarification in COBRA.

As a result, no material discrepancies or noncompliance areas remain which affect the
reliability and integrity of the Ship Overhaul and Repair Subgroup candidate
recommendations.




                                                      17
                                         Table C-2. Maintenance

                         Industrial JCSG Potential Candidate Packet Review




                                                                                          te
                                                                          t io d id a




                                                                                     si s
                                                                                  l an



                                                                                a ly

                                                                               e rs
                                                                 e n C an




                                                                             s is
                                                                                n




                                                                          eP
                                                                              8




                                                                          An

                                                                          e tt
                                                                        6 .0




                                                                       a ly
                                                                      tur
                                                                     da




                                                                     nL
                                                                        -




                                                                    lu e
                                                                    er




                                                                   An
                                                                    n
                                                   c o a rt




                                                                  uc




                                                                ti o
                                                               tio




                                                               Va
                                                             n6

                                                             n7

                                                             n8
                                                             AV




                                                            S tr
                                               Re d Ch
                                                         mm




                                                          c it y



                                                          i ca
                                                         ic a



                                                        r io

                                                        r io

                                                        r io




                                                         ry
                                                    BR




                                                   rce




                                                   r t if
                                                   pa
                                                  s ti f




                                                  lita
                                                  it e

                                                  it e

                                                  it e
                                                    a




                                               CO
                                               Qu




                                               Ca



                                               Ce
                                               Fo
Scenario No.   Scenario Short Title




                                               Ju



                                               Cr

                                               Cr

                                               Cr




                                               Mi
                                             Maintenance
IND-0083A      Rock Island, IL                    Y        Y    Y*    Y     Y      Y   Y Y   Y     Y
IND-0083B      Seal Beach, CA                     Y        Y    Y*    Y     Y      Y   Y Y   Y     Y
IND-0086       Lackland AFB, TX                   Y        Y    Y*    Y     Y      Y   Y Y   Y     Y
IND-0127A      Barstow, CA                        Y        Y    Y*    Y     Y      Y   Y Y   Y     Y
IND-0127B      Red River, TX                      Y        Y    Y*    Y     Y      Y   Y Y   Y     Y
IND-0103       FRC West
IND-0104       FRC Northwest
IND-0123       FRC East                         Candidate Recommendation Packets not prepared at time
IND-0124       FRC Southeast                                           of vaildation**
IND-0125       FRC Southwest
IND-0126       FRC Mid-Atlantic
                             Y - Included / P - Partial / * - Exception Noted
** Subsequent to the issuance of the draft report, the six FRC recommendations were combined
   into one recommendation with the number IND-0103R. Due to time constraints, we were
   unable to validate the data in this recommendation.



Maintenance. We reviewed 5 of 11 potential candidate recommendations for
the Maintenance Subgroup. Subsequent to issuance of the Draft Report,
candidate recommendation IND-0127A was absorbed into a larger Navy
candidate recommendation and candidate recommendation IND-0127B was
absorbed into a larger Army candidate recommendation. Additionally, the
subgroup took corrective action and resolved the following exception:
    •    Additional footnotes for clarification in COBRA.

As a result, no material discrepancies or noncompliance areas remain which
affect the reliability and integrity of the Maintenance Subgroup candidate
recommendations.




                                                        18
                              Table C-3. Munitions and Armaments

                       Industrial JCSG Potential Candidate Packet Review




                                                                                                te
                                                                                t io d id a




                                                                                           si s
                                                                                       la n


                                                                                      a ly
                                                                                     e rs
                                                                        en C a n




                                                                                    is
                                                                                     n




                                                                                 eP
                                                                                    8




                                                                                An
                                                                                e tt
                                                                               ly s
                                                                             6 .0




                                                                            tu r
                                                                           da




                                                                           nL
                                                                              -




                                                                          lu e
                                                                           na
                                                                          er
                                                                       io n
                                                         c o ar t




                                                                        uc

                                                                         A


                                                                      ti o
                                                                     Va
                                                                        6
                                                                   n7

                                                                   n8
                                                                  AV




                                                                 S tr
                                                     Re d C h
                                                               mm


                                                                     t




                                                                c it y
                                                                   n




                                                                ic a
                                                               ic a


                                                              rio

                                                              rio

                                                              rio




                                                               ry
                                                          BR




                                                         rc e




                                                         r t if
                                                         pa
                                                        s ti f




                                                        lit a
                                                        it e

                                                        it e

                                                        it e
                                                          a




                                                     CO
                                                     Qu




                                                     Ca



                                                     Ce
                                                     Fo



                                                     Mi
                                                     Cr

                                                     Cr
                                                     Ju



                                                     Cr
Scenario No.   Scenario Short Title
                                      Munitions and Armaments
IND-0106       Kansas Army Ammunition Plant             Y*      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0108       Hawthorne Army Depot, NV                  Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0110       Mississippi Army Ammunition Plant         Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0111       Red River, TX                             Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0112       Riverbank, CA                             Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0113       Sierra Army Depot, CA                     Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0114       Watervliet, NY                            Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0115       Lima, OH                                  Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0117       Deseret Chemical Depot, UT                Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0119       Newport Chemical Depot, IN                Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
IND-0120       Umatilla Chemical Depot, OR               Y      Y Y* Y         P*   P*   Y   P*   Y*   Y
IND-0122       Lone Star, TX                             Y      Y Y* Y         Y    Y    Y   Y*   Y*   Y
                            Y - Included / P - Partial / * - Exception Noted




Munitions and Armaments. We initially reviewed the 12 potential candidate
recommendations for the Munitions and Armaments Subgroup. Subsequent to
issuance of the Draft Report, candidate recommendation IND-0111 was
absorbed into a larger Army candidate recommendation. Additionally, the
subgroup took corrective action and resolved the following exceptions:

    •   IND-0106 Address all action items in the Quad Chart

    •   IND-0120 Update Criteria 7 and 8 and capacity analysis

    •   Update capacity and military value analysis with an “as of date”

    •   Additional footnotes for clarification in COBRA

As a result, no material discrepancies or noncompliance areas remain which
affect the reliability and integrity of the Munitions and Armaments Subgroup
candidate recommendations.




                                                        19
Appendix D. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closures (Installations and Environment)

     Chair, Industrial JCSG, Principal Deputy Under Secretary of Defense for
     Acquisition, Technology and Logistics


Non-Defense Federal Organizations
     Government Accountability Office




                                        20
Industrial Joint Cross-Service Group Comments




                     21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Deborah L. Culp
Robert F. Prinzbach II
Douglas P. Ickes
Teena R. Propst
Michelle S. Emigh
Steven G. Schaefer
Beth N. Sakshaug
Todd L. Truax
Dharam V. Jain
Lusk F. Penn
Monica L. Noell
Sharon L. Carvalho
